                 Department of the Interior
                 Office of Inspector General




             Evaluation Report




               Absent Immediate Action
                 the Department of the
                Interior Faces Looming
                     Leasing Crisis




Report No. Y-EV-MOA-0003-2008         July 2008

                       
 
                  United States Department of the Interior
                       OFFICE OF INSPECTOR GENERAL
                            Office of Inspections and Evaluations
                                381 Elden Street, Suite 1100
                                  Herndon, Virginia 20170


                                                            July 31, 2008

Memorandum

To:            James E. Cason
               Associate Deputy Secretary

From:          Christina M. Bruner
               Regional Manager, Eastern Region

Subject:       Absent Immediate Action the Department of the Interior Faces Looming
               Leasing Crisis (No. Y-EV-MOA-0003-2008)

        The Office of Inspector General initiated an evaluation to determine the impact of a
new General Services Administration (GSA) leasing regulation on the Department of the
Interior (DOI or the Department). This report presents the results of our evaluation.

        The regulation (Federal Management Regulation (FMR) Bulletin 2008-B1) limits
DOI authority to lease space directly, and the Department and its bureaus and offices have
taken steps to respond. However, weak oversight, errors, and gaps in the bureaus’ leasing
data will affect DOI continuity of operations if they are not addressed.

        We offer three recommendations that we believe will help the Department meet
GSA’s new requirements. We would appreciate being apprised of the actions the
Department takes or plans to take on our recommendations so we may track the status of
their implementation. Please provide a written response to us within 30 days.  

        We thank the Department and the bureaus for providing us with information on
DOI’s real property leases. Should you have any comments or questions regarding this
report, please call me at (703) 487-8011.
                               




                                                
 
                                         TABLE OF CONTENTS



WHY WE PERFORMED THIS EVALUATION ...............................................................1


BACKGROUND ......................................................................................................................1


WHAT WE FOUND ................................................................................................................2
     DOI Continuity of Operations at Risk .............................................................................2
     Unreliable DOI Data Exacerbates Problem ....................................................................4


APPENDICES ..........................................................................................................................6
     Appendix 1 – Delegated Leases Expiring by June 30, 2009 ...........................................6
     Appendix 2 – Leases for General Purpose Space over 19,999 Square Feet Expiring
       Before or During 2010 ...............................................................................................10
     Appendix 3 – Scope and Methodology ...........................................................................11




                                                                    
                                                                    
    WHY WE PERFORMED THIS EVALUATION

The General Services Administration (GSA) issued a new bulletin in November 2007 on
delegated leases that tightened existing regulations. The regulation restricts federal agencies’
ability to lease space without going through GSA and increases reporting requirements on
leases executed by individual agencies.
Most of the bureaus within the Department use the delegation of leasing authority, which
allows them to assume leasing responsibilities and avoid having to rely on GSA to obtain
space. They use this authority to obtain office, warehouse, housing, and other types of space
needed to meet the Department’s missions. These bureaus include the Bureau of Indian
Affairs (BIA), Bureau of Land Management (BLM), Bureau of Reclamation (BOR), Fish and
Wildlife Service (FWS), National Business Center (NBC), National Park Service (NPS), and
U.S. Geological Survey (USGS).
Given the Department’s use of delegated authority, we conducted this evaluation to
determine the impact of the new regulation on the Department’s leasing operations. We
performed our work in accordance with the PCIE/ECIE “Quality Standards for Inspections”
(see Appendix 3).



    BACKGROUND ON THE “CAN’T BEAT GSA LEASING” PROGRAM

In 1996, GSA created a leasing program called “Can’t Beat GSA Leasing.” The Program
offers federal agencies a choice between leasing space through GSA or assuming leasing
responsibility themselves using the delegated
leasing authority. Under GSA’s new regulations          General Purpose Space
for delegated leasing authority, federal agencies:      delegations include leases for
                                                                                     office buildings and most
     ¾ are no longer permitted to lease general                                      warehouses.
       purpose space in excess of 19,999 square
       feet;                                                                         Special Purpose Space delegations
                                                                                     meet unique agency needs. This
     ¾ have additional reporting requirements1;                                      delegation is reserved to BLM,
       and                                                                           BOR, NPS, and USGS.

     ¾ must notify GSA 18 months prior to                                            Categorical Space delegations
       exercising options to extend leases.                                          cover predetermined facilities,
                                                                                     including docks, airport hangars,
                                                                                     temporary housing, and more.




1
  Additional reporting is required prior to and during the course of leases for general purpose space 19,999 square feet or under and for
special purpose space involving 2,500 or more square feet. 
                                                                      1 
                                                                        
    WHAT WE FOUND

DOI CONTINUITY OF OPERATIONS AT RISK
If DOI does not immediately respond to GSA’s tighter leasing restrictions, lost leases could
result. Specifically, DOI must prepare for the expiration of 118 delegated leases by June 30,
20092 (see Appendix 1), by requesting new delegations or leasing space through GSA. The
lack of resources at GSA, contradictory guidance, and missing data at the bureau level place
DOI in danger of not meeting this timeline. If replacement space cannot be obtained, some
elements of DOI bureaus could find themselves having to vacate their premises.

This problem is compounded by contradictory
guidance from GSA and inaccurate or missing data
at the bureau level. Within DOI, the Office of          The Federal Real Property
Acquisition and Property Management (PAM) has           Profile database is a single,
overall responsibility for Department-wide policies     comprehensive inventory
on space management. This includes acting as the        system. It contains data on
sole intermediary between bureaus and the GSA           all federal real property
central office, ensuring standardized leasing           assets within and outside the
processes at the bureaus, and monitoring GSA’s          United States, including
Federal Real Property Profile (FRPP) database for       improvements on federal
delegated leases to ensure consistency with             land.
internal documents. Each bureau also has its own
leasing officials, who manage the bureaus’ leases
and are responsible for compliance with leasing regulations.

At-risk Leases DOI leasing officials expect GSA’s workload to increase due to the
tighter regulation and expressed concern about losing leases. Until GSA can hire and train
additional staff, all requests for new delegations throughout the Government are to be
reviewed by a single person. GSA may, therefore, be unable to process new delegations
within the 18-month notification period, which puts DOI continuity of operations at risk.

Of the 118 leases scheduled to expire by June 30, 2009 (see the table below and Appendix 1),
eight are for general purpose space over 19,999 square feet. An additional five properties
over 19,999 have leases set to expire by July 31, 2010 (see Appendix 2). The Department
holds a total of 57 leases for general purpose space over 19,999 square feet (see table below).
Under the new regulation, DOI cannot use a delegation to continue leasing these 57
properties and will have to rely on GSA to obtain space.

According to DOI leasing officials, GSA field office staff may be unable to meet Department
leasing needs if GSA opts to control a greater share of leases under 19,999 square feet rather
than to grant delegations. Since enacting the new regulation, GSA has denied roughly 10

2
  GSA requires agencies to apply for new delegations at least eighteen months prior to the date of the lease. The
new regulation was issued in November 2007 and took effect in January 2008.
                                                       2 
                                                         
percent of all requests for new delegations, making it difficult to predict when GSA will
grant delegations for leases under 19,999 square feet. An inability to anticipate GSA’s
actions could inhibit effective planning by the bureaus and further affect their continuity of
operations.

Leasing officials in the bureaus suggested that they can no longer assume that GSA will grant
delegations for small leases or for leases in rural areas. For example, BLM, the largest user
of delegations in the Department, requested a delegation to lease 300 square feet in
Dillingham, Alaska, where BLM has a significant presence. GSA declined to grant BLM the
delegation. Such declinations raise concern due, in part, to past experience with obtaining
leased space through GSA. For example, FWS officials informed us that GSA took 3 to 4
years to find appropriate space in Orlando, Florida.


                           Leases for General Purpose and Other Space by Agency
                                                           All Leases      Leases Over 19,999 sq.     All Leases
Bureau               Total sq.       Total Dollar             Over            ft. Expiring by        Expiring by
                        ft.             Value             19,999 sq. ft.       June 30, 2009        June 30, 2009
                       422,282          $ 8,612,095             5                    1                   5
BIA
BLM                 2,042,593            28,617,798            39                    4                   31

BOR                    124,536             1,855,310            1                    0                   1
FWS                    432,539             3,315,593            3                    3                   68
NBC                    462,717               212,327            6                    0                   0
NPS                    276,464             1,651,302            0                    *                   *
USGS                   220,812             5,751,050            3                    0                   13
DOI Total           3,981,943         $ 50,015,475             57                    8                  118
* We could not obtain lease expiration dates for NPS.

GSA Contradictions Conflicts between GSA guidance and regulation also put DOI at
risk of losing leases. GSA has encouraged agencies to fill unused space and to co-locate with
other federal agencies. Such situations could result in an interagency lease that places one
agency in the position of collecting rent from another agency or supplementing the budget of
another agency. Neither transaction is permitted under the delegated leasing authority.3

In one case, PAM officials stated that BLM entered into an interagency agreement with the
Internal Revenue Service (IRS) where the IRS occupied unused BLM space. According to
BLM and PAM, GSA approved BLM’s letting of excess space to the IRS. GSA’s attorneys,
however, have requested that the Department’s Solicitor discuss the arrangement with them.
PAM is working with the Office of the Solicitor to determine whether this arrangement is an
interagency lease, in which one agency collects rent from another agency, or an agreement,
in which rent simply passes through BLM to the landlord.

3
    FMR Bulletin 2008-B1. See section 3(c)(Background).
                                                               3 
                                                                 
In another case, FWS has co-located with other federal agencies in a building that is leased
by the National Oceanic and Atmospheric Administration (NOAA). The FWS lease from
NOAA is set to expire in calendar year 2008, which leaves FWS with less than 18 months to
request a new delegation from GSA. FWS officials are uncertain as to how GSA is going to
handle their situation.

The Department must understand the impact of GSA’s new regulations on DOI leasing
operations. Of immediate concern are the 118 general purpose leases set to expire by June
30, 2009, for which the Department must either obtain a new delegation or request a new
lease through GSA. Resolution of contradictions between GSA guidance and regulations is
critical to lease and space continuity.

Recommendation

       1. PAM should take a leadership role by clarifying with GSA its capacity to meet
          DOI leasing needs, the impact of leasing regulations on DOI operations, and
          communicating GSA’s responses to the bureaus.

UNRELIABLE DOI DATA EXACERBATE PROBLEM

Inaccurate and Missing Data Accurate leasing data allow DOI to identify soon-to-
expire leases. Our evaluation shows that leasing data are not reliable or readily available.
Misclassification of the types of delegations used and an inability of the bureaus to provide
accurate and timely leasing data also place DOI’s continuity of operations at risk. Leasing
delegations vary according to the types of space. Several bureaus incorrectly classified
space, which could lead to a loss of leases. In most cases, office and warehouse space is
categorized as general purpose space, but at least two bureaus classified these spaces as
special purpose or categorical.

Under the new regulation, agencies must obtain general purpose space over 19,999 square
feet through GSA-secured leases but may obtain a delegation of authority from GSA for
general purpose spaces of 19,999 square feet or less. Therefore, bureaus may overlook leases
that are misclassified and not give GSA sufficient time to obtain new space or grant a new
delegation. For example:

   Fish and Wildlife Service: FWS misclassified approximately 99 of its current leases.
   Of these, 86 leases for office space, warehouses, and family housing were inappropriately
   obtained under a special purpose delegation. FWS is not authorized to lease any space
   using this delegation.

   National Park Service: NPS inappropriately reported 8 leases for office space and 17
   leases for warehouse space under the categorical delegation. If NPS is obtaining office
   space without a general purpose delegation from GSA, the Service is violating GSA
   rules.

                                               4 
                                                 
The inability of the bureaus to provide leasing data further imperils DOI continuity of
operations. Being able to provide such data to GSA is important because, according to GSA
and bureau leasing officials, GSA has often taken 1 to 2 years to negotiate new leases.  

In early April 2008, we requested from seven bureaus the expiration dates for all leases
submitted to FRPP. GSA had requested similar information in mid-March 2008. Most of the
bureaus had a difficult time providing this information. Eventually, each bureau did provide
us with lease expiration dates — with the exception of NPS. Only the National Business
Center was able to provide timely and accurate data.

The bureaus had difficulty providing expiration dates because they were (1) unaware of what
leases were contained in the FRPP; (2) not updating their internal databases, or (3) decentra-
lized organizationally, which made it difficult to gather information on leases from field
offices. For example:

   ¾ Leasing officials appeared to be unaware of which leases were submitted to GSA
     through the FRPP. Instead, officials at BLM, BOR, FWS, NPS, and USGS provided
     expiration dates from their respective space management plans. These plans
     contained some, but not all, of the leases submitted to FRPP. We supplied the
     bureaus with the FRPP data, and BLM, BOR, FWS, and USGS were able to provide
     us with accurate expiration dates.

   ¾ BIA provided us with a complete list of the expiration dates based on its FRPP data.
     However, several of the dates were expired. When we brought the expired dates to
     the attention of BIA leasing officials, a staff member in the office stated that she was
     not sure why the list had not been updated. She subsequently verified that the leases
     had been extended and provided us with an updated list.

   ¾ NPS could not provide us with lease expiration dates. We believe NPS had a difficult
     time gathering the data in a timely fashion because of its decentralized nature and
     process for compiling data. The FRPP data is compiled at the individual park level
     with no central oversight. The NPS leasing official we spoke with believes the FRPP
     leasing data did not match the bureau’s data because “people just throw stuff in.”
    
To identify soon-to-expire leases and take the necessary actions to ensure the continuity of
DOI’s operations, DOI and its bureaus must maintain accurate leasing data. We anticipate
that PAM, in its oversight role, will work with the bureaus to ensure that DOI’s leases are
classified correctly in FRPP and that lease expiration dates for all delegated leases have been
provided to GSA.

Recommendations

       2. Ensure that leases are classified correctly in FRPP.

       3. Provide GSA with all lease expiration dates for delegated leases.

                                               5 
                                                 
 


                                                                     Appendix 1


               Delegated Leases Expiring by June 30, 2009

                                             Square       Type of        Expiration
    Bureau   Property ID    Type of Space
                                            Footage      Delegation         Date
             A04101000202     Office           3,500   General Purpose    7/31/2008
             A13101000001     Office             300   General Purpose    5/31/2008
     BIA     A13R01000001     Office          10,470   General Purpose    7/25/2008
             B00101000281     Office          24,715   General Purpose    9/30/2008
             B06101000801     Office          17,034   General Purpose    7/31/2008
               GDL010003      Office           2,000   General Purpose    5/31/2008
               NCL000174      Office           1,500   General Purpose    3/31/2008
               NCL000175      Office           1,931   General Purpose    6/30/2008
               NCL000180      Office           6,250   General Purpose    5/31/2009
               NCL010203      Office           2,510   General Purpose    5/16/2009
               NCL010208      Office           5,760   General Purpose    9/30/2008
               NCL010212      Office           2,100   General Purpose    4/30/2009
               NCL030256      Office             320   General Purpose    5/31/2009
               NCL030267      Office             300   General Purpose    5/31/2009
               NCL040284     Warehouse         6,000   General Purpose   10/31/2008
               NCL040311      Office           1,018   General Purpose    6/30/2009
               NCL040314      Office             200   General Purpose   10/31/2008
               NCL050361      Office           3,694   General Purpose    4/13/2009
    BLM        NCL060368      Office           4,495   General Purpose    4/13/2009
               NCL060371      Office           2,160   General Purpose    3/31/2009
               NCL060375      Office             210   General Purpose     8/5/2008
               NCL070450      Office           1,730   General Purpose    2/14/2009
               NCL080460      Office             519   General Purpose   10/31/2008
               NCL990004      Office          22,345   General Purpose    5/17/2009
               NCL990007      Office          27,500   General Purpose    3/25/2009
               NCL990011      Office           9,246   General Purpose   10/30/2008
               NCL990023      Office           5,255   General Purpose    4/30/2008
               NCL990047      Office           6,989   General Purpose   11/17/2008
               NCL990070      Office           1,000   General Purpose    9/30/2008
               NCL990084      Office          11,579   General Purpose    2/28/2009
               NCL990094      Office          53,400   General Purpose     6/7/2009
               NCL990109      Office          10,362   General Purpose     7/6/2008
               NCL990110      Office          24,763   General Purpose    3/13/2009
                                     6 
 
                                         Square       Type of        Expiration
Bureau   Property ID    Type of Space
                                        Footage      Delegation         Date
           NCL990123      Office             370   General Purpose   12/31/2008
BLM        NCL990126      Office           9,154   General Purpose     5/4/2009
           NCL990127      Office           5,682   General Purpose     6/7/2009
BOR      ZZZZ000500B      Office          17,822   General Purpose    4/17/2009
              AK100       Office             144   Special Purpose    9/30/2008
                         Family
               AK106                       1,800   Special Purpose    2/26/2008
                         Housing
                         Family
                AK32                       2,400   Special Purpose    9/30/2008
                         Housing
                AZ04    Warehouses           700   Special Purpose    9/30/2008
                AZ05      Office             345   Special Purpose    6/30/2008
                AZ08      Office           3,524   Special Purpose     6/1/2008
                CA11      Office           3,150   Special Purpose   10/15/2008
                CA13      Office           4,010   Special Purpose    4/30/2008
                CO01      Office          22,000   Special Purpose    9/30/2008
               CO190      Office           1,600   Special Purpose    9/30/2008
                CT01    Warehouses           450   Special Purpose    9/30/2008
                FL11      Office             100   Special Purpose    4/30/2008
                FL13    Warehouses           480   Special Purpose    9/30/2008
FWS
                FL14    Warehouses           900   Special Purpose    9/30/2008
                FL15    Warehouses           300   Special Purpose    9/30/2008
                GA02    Warehouses           100   Special Purpose    9/30/2008
                 HI02     Office           1,792   Special Purpose    9/30/2008
                 IA02     Office              72   Special Purpose    9/30/2008
                 ID01     Office           5,791   Special Purpose    9/30/2008
                 IN01     Office             128   Special Purpose   12/31/2008
                KY01    Warehouses           372   Special Purpose    9/30/2008
                LA01      Office          15,574   Special Purpose    9/30/2008
               MA01     Warehouses           500   Special Purpose    9/30/2008
               MA02     Warehouses           300   Special Purpose    9/30/2008
                MI03    Warehouses           308   Special Purpose    9/30/2008
               MN03     Warehouses         1,500   Special Purpose    9/30/2008
               MO01     Warehouses         5,000   Special Purpose    9/30/2008
                MS01    Warehouses            50   Special Purpose    9/30/2008
                MT02      Office             980   Special Purpose   11/30/2008
                MT03    Warehouses           100   Special Purpose    6/30/2008
                ND03    Warehouses         1,500   Special Purpose    8/31/2008
                NE01    Warehouses           660   Special Purpose    2/10/2009
                                 7 
                                   
                                         Square       Type of        Expiration
Bureau   Property ID    Type of Space
                                        Footage      Delegation         Date
                 NJ02   Warehouses         1,800   Special Purpose    9/30/2008
                NM01    Warehouses         1,600   Special Purpose    9/30/2008
                NM05    Warehouses         1,600   Special Purpose    9/30/2008
                NM06    Warehouses           250   Special Purpose    9/30/2008
                OH02       Office            500   Special Purpose    7/31/2008
                OK01    Warehouses           250   Special Purpose    9/30/2008
                OR02       Office          2,154   Special Purpose    9/30/2008
                OR03       Office          2,121   Special Purpose    9/30/2008
                 SC01   Warehouses           250   Special Purpose    9/30/2008
                SD01    Warehouses         1,500   Special Purpose     7/6/2008
                TX01    Warehouses           800   Special Purpose    9/30/2008
FWS             TX03    Warehouses         1,694   Special Purpose    9/30/2008
                TX04    Warehouses         1,930   Special Purpose    9/30/2008
                TX05    Warehouses           250   Special Purpose    9/30/2008
                TX07    Warehouses           250   Special Purpose    9/30/2008
                TX08    Warehouses           250   Special Purpose    9/30/2008
                          Family
                VA07                        750    Special Purpose    7/18/2008
                          Housing
                          Family
                VA09                       1,500   Special Purpose    1/31/2009
                          Housing
                VA17    Warehouses           750   Special Purpose    9/30/2008
                VT02    Warehouse            800   Special Purpose    9/30/2008
                WA01       Office          4,106   Special Purpose    9/30/2008
                WA03       Office          1,350   Special Purpose    9/30/2008
                WA05    Warehouse            600   Special Purpose    9/30/2008
                WI01       Office          1,000   Special Purpose   12/31/2008
                WY02    Warehouse            240   Special Purpose   10/29/2008
                WY03       Office          6,450   Special Purpose    5/31/2008
             07000594      Office          2,813   General Purpose    6/30/2008
             07000252   Warehouse          1,500   General Purpose    9/30/2008
             07000727      Office          1,984   General Purpose    9/30/2008
             07000746   Warehouse          3,000   General Purpose    9/30/2009
USGS
             07001035   Laboratories      12,000   General Purpose    9/30/2008
             07001089   Warehouses           900   General Purpose    9/30/2008
                          Family
             07001134                      2,600   General Purpose    9/30/2008
                          Housing
             07000558      Office           640    General Purpose   10/30/2008
             07000583   Warehouses           50    General Purpose    9/30/2009
                                 8 
                                   
                                         Square       Type of        Expiration
Bureau   Property ID    Type of Space
                                        Footage      Delegation         Date
             07001023    Office            4,031   General Purpose    3/31/2009
             07000266    Office           10,300   General Purpose    5/31/2009
USGS         07000248   Warehouses         2,800   General Purpose    6/30/2009
             07000726    Office            2,158   General Purpose    4/31/2009




                                 9 
                                   
 


                                                                                       Appendix 2


          Leases for General Purpose Space over 19,999 Square Feet
                       Expiring Before or During 2010

                                              BIA

    Office space lease in Oklahoma for 24,715 sq. ft. that expires on September 30, 2008.


                                             BLM

    Office space lease in Utah for 24,763 sq. ft. that expires on March 13, 2009.
    Office space lease in Colorado for 27,500 sq. ft. that expires on March 25, 2009.
    Office space lease in Colorado for 22,345 sq. ft. that expires on May 17, 2009.
    Office space lease in Oregon for 53,400 sq. ft. that expires on June 7, 2009.
    Office space lease in Arizona for 37,780 sq. ft. that expires on November 30, 2009.
    Office space lease in Oregon for 32,682 sq. ft. that expires on April 25, 2010.
    Office space lease in Nevada for 33, 128 sq. ft. that expires on August 26, 2010.


                                             FWS

    Service lease in Washington for 100,000 sq. ft. that expires on September 30, 2008.
    School lease in Minnesota for 25,112 sq. ft. that expires on September 30, 2008.
    Office space lease in Colorado for 22,000 sq. ft. that expires on September 30, 2008.


                                             NBC

    Office space lease in Virginia for 70,678 sq. ft. that expires on July 31, 2010.


                                             USGS

    Warehouse lease in California for 23,240 sq. ft. that expires on July 31, 2009. 




                                               10 
 
                                                                                 Appendix 3


                               Scope and Methodology
We conducted this evaluation in accordance with the “Quality Standards for Inspections”
established by the President’s Council on Integrity and Efficiency. We interviewed leasing
officials in the Office of Acquisition and Management, Bureau of Indian Affairs, Bureau of
Land Management, Bureau of Reclamation, Fish and Wildlife Service, National Business
Center, and the National Park Service. The Office of Surface Mining and the Minerals
Management Service do not have delegated leases for real property. We reviewed a small
number of leases for BIA, NBC, and the U.S. Geological Survey and crosschecked the
leasing data provided to us by these agencies with the data in GSA’s Federal Real Property
Profile database. The latter was provided to us by PAM. We did not consider previously
issued leasing regulations.




                                             11 
                                               
 




      Report Fraud, Waste, Abuse ,
         and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
              General staff, Departmental employees,
               and the general public. We actively
             solicit allegations of any inefficient and
                wasteful practices, fraud, and abuse
              related to Departmental or Insular Area
             programs and operations. You can report
                  allegations to us in several ways.




    By Mail:          U.S. Department of the Interior
                      Office of Inspector General
                      Mail Stop 4428 MIB
                      1849 C Street, NW
                      Washington, D.C. 20240

    By Phone          24-Hour Toll Free           800-424-5081
                      Washington Metro Area       703-487-5435

    By Fax            703-487-5402

    By Internet       www.doioig.gov/hotline




                                                                  
